No. 20-242

Supreme (Exrnrt uf 0% United Mttea
NORINE CAVE
Petitioner,
v.
DELTA DENTAL OF CALIFORNIA,
Respondent.
On Petition for a Writ Of Certiorari to
The United States Court Of Appeals
For The Ninth Circuit
PETITION TO REHEAR PETITION FOR WRIT OF CERTIORARI

Norine Cave
Petitioner
278 Mossy Way NW
Kennesaw, GA, 30152
fidfinecave@att.net
Tel.: (404)-518-0902
Fax: (404)-963-0309
Pro s e

PETITION TO REHEAR PETITION FOR WRIT OF CERTIORARI
Pursuant to Rule 44 of this Court, Petitioner Norine Cave (“Cave”)
respectfully petitions for a reconsideration of her writ of certiorari to review the
judgment of the Ninth Circuit. This Court denied Petitioner’s petition for writ of
certiorari on November 2, 2020 subsequently entering it into record on November 4,
2020.

This Court allows litigants to seek reconsideration of a decision based on the
merits. Cave asserts that there are genuine issues remaining of significant
importance as they relate to claimants’ rights to equally access of their personal
health information/medical records. There are also remaining issues pertaining to
claimants’ rights to protect their insurance benefits from unauthorized claims when
a covered entity refuses to do so. Cave presents an intervening circumstance that
would make rehearing her petition for writ of certiorari appropriate due to the
reasons below.
I.
This case involves a matter of civil and fundamental rights that all claimants
under provisions of ERISA are entitled, yet the judgment and opinions upheld by
the lower courts does not reflect such protections. The equal right of access of
medical records within 60 days maximum is provided under federal law for all and
not some (45 CFR §164.526).
All claimants’ rights to equally and freely access requested medical records
are protected under federal law. Historically, Blacks have been subjected to overt
1

displays of maltreatment with respect to healthcare in various forms. The notion of
the necessity of litigation to access one's own medical records from an insurer, is a
prime example of the disparages of the claimant’s treatment. The denial of more
than four years of requests of medical records, and the subsequent characterization
of such denial by the district court as “an omission” further underscores the unfair
and often overlooked concerns of the issues remaining in the court. These issues
have severe consequences for the general public’s right to access their medical
records' without unreasonable barriers.
2.
The appeals court’s upholding of the district court’s judgment is in error because the
alleged authorized disbursement benefits for a fraudulent claim produced financial
injuries to the plan and it’s members, who contribute to the plans. The court of
appeals relied upon, the decision in Wise v. Verizon Communications Inc. 600F . 3d
1180, 1189 (9th Cir. 2010) (“To allege a fiduciary breach under 1132(a)(2), [the
plaintiff] must allege that the fiduciary injured the benefit plan or otherwise
jeopardize® the entire plan or put at risk plan assets.” (citation and internal
quotation marks omitted, some alterations in original). Cave asserts, without a fair
and fulLreview, a correct assessment of the facts is nearly impossible to obtain. In
this case, there was no reasonable opportunity or provision for a “full and fair
review” of the claim and the adverse benefit determination, pursuant to 29 C.F.R.
2560.503-l(h)(2)(iii), that Cave and all claimants are entitled to under ERISA.

2

“The Department of Labor has issued extensive regulations setting forth the
minimum requirements for reasonable claims procedures. 29 C.F.R. § 2560.503-1.
Subsection (h), which is titled “Appeal of adverse benefit determinations,” provides,
in pertinent part:
(1) In general. Every employee benefit plan shall establish and maintain a
procedure by which a claimant shall have a reasonable opportunity to appeal an
adverse benefit determination to an appropriate named fiduciary of the plan, and
under which there will be a full and fair review of the claim and the adverse benefit
determination.
(2) Full and fair review. ... [T]he claims procedures of a plan will not be deemed to
provide a claimant with a reasonable opportunity for a full and fair review of a
claim and adverse benefit determination unless the claims procedures(iii) Provide that a claimant shall be provided, upon request and free of charge,
reasonable access to, and copies of, all documents, records, and other information
relevant to the claimant’s claim for benefits.”
A summary judgment (under FRCP 56) is improper where a full and fair
review process is absent under provisions of ERISA.
3.
The Ninth Circuit’s panel opinion omits that the “documents” sought by Cave
were actually her full medical records. Failure to release such records may require
relief under 29 U.S.C. §1132(c)(1). At all times, Cave requested her full medical
records from Delta Dental of California (“Delta Dental”) and, further, made no
request of the plan (Entertainment Industry Flex Plan, “Flex Plan”) for such
records or any document at all. In this case, there remains a deliberate withholding
of valid unredacted x-rays from Delta Dental, whereas, other claimants have been

3

known receive upon request without unauthorized redactions, which constitutes a
form of discrimination against Cave.
All claimants should reasonably expect to be treated the same, free of
disparate treatment, because it is a matter of a civil rights issue and because all
claimants contribute to the plan’s assets. Any form of deprivation could serve as a
pretext for discriminating intent.
4.
This case also reveals the importance of procedural prudence in which all
claimants should expect from their insurers, regardless of race, sex or gender.
A denied writ of certiorari could separate and disqualify certain claimants
from equal access of full medical records and further deny fair and full review
processes under the provisions of ERISA that was intended to be available to all
claimants. The lower courts’ holdings reflect the contrary to these issues and is
therefore erroneous and worthy of this Court's reconsideration on the matters that
affect all claimants under the standards and guidelines under ERISA.
Finally, this case also reflects on a pro se litigant's right to stand and protect
their rights in whatever area needed, particularly, pertaining to one's health.
Because your life matters... then health ought to matter equally, since one infringes
upon the other.
See Picking v. Pennsylvania Railway, 151 F. 2d. 240, Third Circuit Court of
Appeals. “The plaintiffs civil rights pleading was 150 pages in described by a federal
judge as “inept”. Nevertheless, it was held where a plaintiff pleads pro se in a suit

4

for protection of civil rights, the court should endeavor to construe plaintiffs
pleadings without regard to technicalities.”
See also, Elmore v. McCammon (1986) 640 F. Supp. 905, which states
impertinent part, “the right to file a lawsuit pro se is one of the most important
rights under the constitution and laws.”
5.

In this case, Delta Dental was informed, and knew of the fraudulent benefits
claim and did not allow the provider of services an opportunity to challenge that
determination in accordance with ERISA guidelines. Instead, it protected the
provider of service, in lieu of protecting the plan’s assets as required by a fiduciary.
It further gave advance notice to the provider of service, that it would withhold
Cave’s medical records citing, and hereby, misapplying California law. These
aforementioned issues, remain in lower courts, thus requiring intervention from
this Court, not as to independently addressed these issues per se, but rather to
preserve to intent of the protected provisions of ERISA, for all claimants and not
some.
6.
CONCLUSION
This petition should also be granted because health is always very prevalent
issue for everyone, particularly in the ongoing pandemic.

5

In conclusion, Cave requests that this Court exercises its discretion to
consider the issues presented here on the merits and reconsider granting the
petition for writ of certiorari.

DATED this 27th day of November, 2020,
Respectfully Submitted

}[tkiO /—^
Norine Cave
Petitioner, pro se

6

CERTIFICATE OF COMPLIANCE
I hereby certify that this brief complies with the Rules of the United
States Supreme Court.
Respectfully submitted this 27th Day of November, 2020,

Norine Cave, Petitioner

7

No. 20-242

duprem* (tort of 3% Initefc l^tateo
NORINE CAVE
Petitioner,
v.
DELTA DENTAL OF CALIFORNIA,
Respondent.

CERTIFICATE OF PRO SE PETITIONER
I, Norine Cave, hereby certify that I hereby certify that this petition for rehearing is
presented in good faith and not for delay, this 27th day of November 2020.

Ji

Norine Cave
Petitioner, Pro Se

